<html>
<title> - REFLECTIONS ON THE REVOLUTION IN EGYPT, PART I</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
             REFLECTIONS ON THE REVOLUTION IN EGYPT, PART I 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 15, 2012

                               __________

                           Serial No. 112-126

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

72-875 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
































                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania
ROBERT TURNER, New York
























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Robert Kagan, Ph.D., senior fellow, Brookings Institution........     7
Michele Dunne, Ph.D., director of the Rafik Hariri Center for the 
  Middle East, Atlantic Council..................................    16
Mr. Eric Trager, Ira Weiner fellow, Washington Institute for Near 
  East Policy....................................................    22
Tamara Wittes, Ph.D., former Deputy Assistant Secretary of State 
  for Near Eastern Affairs.......................................    28

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Robert Kagan, Ph.D.: Prepared statement..........................     9
Michele Dunne, Ph.D.: Prepared statement.........................    18
Mr. Eric Trager: Prepared statement..............................    24
Tamara Wittes, Ph.D.: Prepared statement.........................    30

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55


             REFLECTIONS ON THE REVOLUTION IN EGYPT, PART I

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2012

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:40 p.m., in 
room 2172, Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. Good afternoon. The subcommittee will come to 
order.
    I am Steve Chabot, the chairman of the subcommittee. I want 
to welcome all my colleagues to this hearing of the 
Subcommittee on the Middle East and South Asia.
    Just over 1 year ago, Hosni Mubarak resigned as President 
of Egypt in response to massive and sustained protests by the 
Egyptian people. Unfortunately, as the last year has 
illustrated far too well, freedom rarely marches steadily 
forward in a straight line. Over the past year, the Supreme 
Council of the Armed Forces, under the leadership of Field 
Marshal Tantawi, has ruled Egypt with the stated goal of 
turning power over to a civilian government as soon as 
possible.
    Recent developments, however, do not leave me optimistic 
about Egypt's future. Over 1 year later, the Army is still in 
charge. Islamist groups hold a majority in the People's 
Assembly, the lower house of the Egyptian Parliament. The 
Egyptian economy appears to be on the verge of collapse. And 
the recent raids on civil society NGOs call into question the 
current government's commitment to democratic principles.
    With nearly 47 percent of the elected seats in the Egyptian 
Parliament going to the Muslim Brotherhood and nearly a quarter 
to other Islamist parties, it is clear that Islamists will 
dominate the Egyptian political landscape over the next year. 
And it will be a critical year. It is during this time that the 
Egyptian constitution will be drafted by a 100-person 
constitutional assembly which is to be elected by the newest 
Islamist-dominated Parliament. It will then be put before 
Egyptians as a referendum.
    Many question the Islamists' commitments to democratic 
principles. Elections are a necessary but not sufficient 
addition for democracy, and as countries like Egypt build its 
structures of government, it is critical that Egyptians 
establish key institutions of liberal government, in the 
classic sense: Freedom of speech; freedom of assembly; equal 
rights for women, religious, and ethnic minorities; and a free 
press.
    I am deeply concerned that the recent violence against the 
Egyptian Christian community, as well as the lawsuit brought by 
Islamists against Naguib Sawiris, an Egyptian Coptic 
businessman and liberal politician, for having tweeted a 
cartoon making fun of Islamists, may be indicative of the 
direction Egypt is heading in.
    I am also concerned about the future of the Israeli-
Egyptian relationship. The Muslim Brotherhood as well as other 
Islamist parties have made several troubling and contradictory 
statements regarding the future of the peace treaty with 
Israel. I would caution any future Government of Egypt to tread 
very, very carefully. The peace treaty between Israel and Egypt 
has helped secure peace in the Middle East for over three 
decades now. It represents an ironclad commitment between two 
sovereign states and should not be subject to political 
posturing. Any adverse alteration to it, its provisions, or its 
implementation will be taken as a sign that Egypt is no longer 
interested in being a force for peace and stability and would 
be met with tremendous opposition here in the Congress--on both 
sides of the aisle, I might add.
    Perhaps the most urgent of the recent developments, 
however, are the raids on NGOs operating in Egypt. On December 
29th, 2011, Egyptian Government officials raided the offices of 
numerous civil society NGOs, including the International 
Republican Institute, IRI; National Democratic Institute, NDI; 
and Freedom House, FH, as part of a criminal investigation into 
foreign funding of NGOs commissioned by Minister of 
International Cooperation Faiza Abul Naga.
    Since these initial raids, the Government of Egypt has 
taken numerous actions which have directly escalated the 
situation. The Egyptian Government has barred at least six 
American NGO employees from leaving the country and, on 
February 6th, issued criminal charges against 43 people, 
including the Egypt country directors of NDI and IRI. Nineteen 
Americans have been charged, including Sam LaHood, the son of 
our former colleague in the House and current U.S. 
Transportation Secretary, Ray LaHood, and Charles Dunne, head 
of Middle East programs at Freedom House and the husband of Dr. 
Dunne, one of our witnesses today.
    Just yesterday, the Government of Egypt slapped another 
travel ban on an American student in Egypt, and a top Muslim 
Brotherhood official threatened that any alteration to U.S. aid 
in response to the NGO raids would force a reevaluation of the 
peace treaty with Israel.
    I cannot overstate the gravity of this situation, which 
seriously calls into question the Government of Egypt's 
commitment to the principles of democratic governance. These 
NGOs pursued a singular goal: To assist the people of Egypt in 
advocating for the protection of their own human and civil 
rights at this critical time of transition.
    Decisions about assistance to Egypt must ultimately be 
shaped by the choices and policies made by the Egyptian 
Government. We have an interest in strongly supporting a 
democratic government that respects the rights of its citizens 
and rule of law, fosters greater economic opportunity, and 
observes international obligations. But we would clearly have 
to reevaluate our support of any government that does not 
respect the institutions of free government, discriminates 
against or represses its citizens, or which pursues policies 
which are destabilizing in the region.
    A refusal by the Government of Egypt to, in the immediate 
future, return all seized property, drop the travel ban it has 
instituted, drop all charges against both American and Egyptian 
NGO employees, and allow these organizations to operate free of 
constraints will certainly have a most negative effect on the 
broader U.S.-Egyptian relationship and will necessitate a 
reconsideration of U.S. assistance to Egypt.
    For decades, Egypt has been a critical ally of the United 
States in the global war on terror and in the pursuit of Arab-
Israeli peace. Egypt has been and I hope will remain a leader 
in the Arab world and a force for peace in the region. I hope 
our witnesses here today can help us understand the current 
trajectory in Egypt and help guide U.S. policy to ensure that a 
democratic Egypt rises from the ash heap of authoritarianism.
    And I would now yield to the gentleman, the ranking member 
of this committee, Mr. Ackerman from New York, to make an 
opening statement.
    Mr. Ackerman. I thank the chairman, especially for calling 
this very timely, important hearing.
    The Egyptian revolution of 2011 is still unfolding, and its 
ultimate form and significance will not be clear for some time 
to come. But we meet today to consider what has occurred, what 
events and trends are currently under way, and depending on our 
courage or, perhaps, fools that we are, we might venture some 
guesses about where Egypt is heading.
    In the midst of the macro-level crisis created by the 
revolution and the transition to a new government and a new 
form of government, there is also a very serious crisis that 
has developed relating to the operation of American-backed non-
government organizations assisting Egyptians with the 
development of civil society and the non-governmental political 
infrastructure needed to sustain a healthy democracy.
    As a general rule when it comes to foreign assistance to 
nations, I tend to rely on the political wisdom of my favorite 
philosopher, my mother. She would always say, ``If you want to 
help me, help me my way.'' ``Help me my way.'' When I go 
abroad, I hear it over and over, even if the exact words are 
different and it is said in another language. ``Help me my 
way'' is a demand for dignity. It is an insistence that 
progress can be achieved by agreement and cooperation or not at 
all. Even if she was at the doctor's office and being examined, 
she still wasn't going to be poked and prodded and stuck and 
stickered like a piece of livestock. She wanted to be helped, 
but she wanted to be helped on her terms, her way.
    A non-negotiable demand for respect and dignity is at the 
very heart of what has been happening throughout the Arab world 
this year. So when we in the United States think about what our 
response should be to these amazing and unexpected changes, our 
first question should be: What is it that you want from us?
    I do not and will not excuse the shameful assault on the 17 
NGOs orchestrated by parts of the Egyptian Government. Naked 
ambition fueled by demagoguery is to blame, along with the 
shameful unwillingness of responsible Egyptians to contain the 
damage. U.S.-Egyptian relations have already been harmed by 
this crisis, and if it goes unresolved or, worse, spirals out 
of control, it could very quickly legally foreclose our ability 
to provide any bilateral assistance. I think such an outcome 
would be a disaster for both nations.
    I know that our diplomats are working hard to find a 
mutually acceptable solution that will de-escalate this problem 
and allow both sides to focus on the issues that matter most in 
our relationship. But our efforts have to be matched on the 
other side by their courage to act in Egypt's own best 
interest.
    The problem is that Egypt today has a ``sort of, kind of'' 
government right now, and it is neither strong nor decisive, 
much less ambitious. Rather than having one powerful but 
increasingly sluggish, nearly dead hand on the switch, Egypt no 
longer has anyone clearly in charge.
    And I don't say that as an insult to the men on the Supreme 
Council of the Armed Forces, or the SCAF. They are not, nor 
should they be, expected to be experts, politicians or domestic 
policymakers or elected officials. A certain hesitancy and 
caution regarding public policy in the administration of 
justice is highly appropriate for anyone in a custodial 
position. And, in general, the Egyptian military's ambivalence 
about power is something we should admire and appreciate.
    There is a critical balance to be struck, and I will be the 
first to acknowledge that such a balance is hard to obtain. On 
the one hand, as unelected caretakers, the SCAF must be 
cognizant that it is operating without a popular mandate. And 
on the other, they have an obligation as patriots to govern in 
their nation's best interest until they hand power over to a 
new government.
    I don't envy their task, and having never stood in their 
shoes, I don't wish to be too critical. The job they are 
attempting is far more difficult than many suspect. But I truly 
believe that we are approaching a precipice beyond which our 
bilateral relations could suffer terrible damage. The image of 
Americans being captured in a Middle Eastern country following 
a revolution brings up some very unpleasant memories in this 
country. If people here conclude that Egypt is not on a path to 
democracy but is instead on its way to becoming another Iran, 
our bilateral relationship will not survive. We are not at that 
point yet, but we are getting closer every day.
    When we ask the question, what does Egypt want from us, we 
may not be able to expect a strong, clear single answer. It 
won't likely be coming for quite some time. Instead, we should 
expect a diversity of answers, sometimes contradictory, 
sometimes counterintuitive, sometimes self-destructive, and 
maybe often delivered in a tone of anger, frustration, and 
impatience. We should expect something along the lines of, ``If 
you want to help me, help me my way.''
    That is understandable. But it means we have to have some 
clarity ourselves about what we are prepared to accept and what 
we are ready to push back on. We can't and should not try to 
make Egypt's choices. We can and should make choices ourselves 
about helping Egypt that respects Egypt's sovereignty, choices 
that support a genuine democratic transition, and choices that 
prevent any long-term harm to our relations or to regional 
stability and security.
    Our interests and Egypt's interest in the United States 
strongly include but are much larger than the operation of 
these NGOs. That does not at all make the issue trivial. It is 
not. Both sides need to recognize the danger that this issue 
poses and redouble their efforts to ensure that this hopefully 
enduring and critical strategic partnership is removed from the 
grave jeopardy that it currently faces. Each of us, and right 
now I would say especially Cairo, needs to accept 
responsibility for this relationship and to act accordingly and 
soon.
    I thank you, Mr. Chairman. I look forward to hearing from 
our distinguished panel, except for my homie, from whom I 
expect nothing because we grew up in the same 'hood, and that 
is Eric Trager, who I appreciate being here and his expertise 
as well.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much, Mr. Ackerman.
    And now the Chair would invite members if they would like 
to make a 1-minute statement to do so or to pass, either way.
    Mr. Turner, did you have any desire to make an opening 
statement?
    Mr. Turner. I will submit one for the record. I am 
interested in hearing what the witnesses have to say. I hope 
they can disabuse me of my pessimism as we watch Egypt in the 
balance between some democratic forces and sinking into a 
theocracy, a totalitarian theocracy.
    I yield back.
    Mr. Chabot. Thank you very much.
    And our distinguished colleague from Virginia, Mr. 
Connolly, is welcome to make an opening statement.
    Mr. Connolly. Thank you, Mr. Chairman.
    And I want to echo the sentiments of our colleague, the 
ranking member, Mr. Ackerman. The Egyptian-U.S. relationship is 
very critical to Middle East peace. It has been a very 
important bilateral and multilateral relationship for many 
years, especially since Camp David. And the recent development 
with respect to the detaining of members of especially NDI and 
IRI, very troubling. I will give the Egyptians credit for doing 
one thing we can't do very well here in Congress, and that is, 
they have managed to bring Democrats and Republicans together.
    But I would just cite, Mr. Chairman, the language of the 
Consolidated Appropriations Act that says, ``Prior to the 
obligation of funds appropriated by this act under the heading 
Foreign Military Financing Program, the Secretary of State 
shall certify that the Government of Egypt is supporting the 
transition to civilian government, including holding free and 
fair elections, implementing policies to protect freedom of 
expression, association and religion, and due process of law.''
    Those are the goals this Congress set for this relationship 
and for the emerging Government of Egypt. I am all ears for the 
witnesses' testimony as to how the recent detaining of NGO reps 
comports with that language.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much.
    I would now like to introduce our very distinguished panel 
here this afternoon.
    We will start with Robert Kagan, who is a senior fellow at 
the Brookings Institution and is an expert and frequent 
commentator--I must say, I just saw him on TV this morning on 
one of the programs--on Egypt, the Middle East, U.S. national 
security policy, and U.S.-European relations. He writes a 
monthly column on world affairs for the Washington Post and is 
a contributing editor at the Weekly Standard and the New 
Republic. He is also a member of the board of directors at the 
Foreign Policy Initiative. Prior to Brookings, Kagan spent 13 
years as a senior associate at the Carnegie Endowment for 
International Peace. From 1984 to 1988, he served as a member 
of the State Department's Office of Policy Planning. On more 
than one occasion, Kagan has been named one of Foreign Policy 
magazine's top 100 global thinkers.
    Our next witness will be Michele Dunne, who is director of 
the Rafik Hariri Center for the Middle East at the Atlantic 
Council of the United States. She was a senior associate at the 
Carnegie Endowment for International Peace and editor of the 
Arab Reform Bulletin from 2006 until 2011. She is previously a 
Middle East specialist with the U.S. Department of State, where 
her assignments included serving on the National Security 
Council staff, on the Secretary of State's policy planning 
staff, and the U.S. Embassy in Cairo, and the U.S. Consulate 
General in Jerusalem, and in the Bureau of Intelligence and 
Research. She holds a Ph.D. in Arabic language and logistics 
from Georgetown University, where she was a visiting professor 
from 2003 until 2006.
    Our next witness will be Eric Trager. Mr. Trager holds the 
Ira--and I have consulted with both sides of the aisle here. Is 
it ``Weiner'' or ``Weiner''?
    Mr. Ackerman. Two Jews are wrong.
    Mr. Trager. ``Weiner.''
    Mr. Chabot. Well, we weren't sure. And I have to say, Mr. 
Ackerman said the odds were it was probably ``Weiner.'' But, 
anyway, he was wrong as usual. No, actually, he is right quite 
often.
    In any event--at the Washington Institute as a Ph.D. 
candidate in political science at the University of 
Pennsylvania, where his research focuses on Egyptian opposition 
parties. He was in Egypt during the 2011 anti-Mubarak revolts, 
and his writings have appeared in Foreign Affairs, the 
Atlantic, and the New Republic, among other publications. From 
2006 to 2007, Mr. Trager lived in Egypt as an Islamic 
civilizations Fulbright fellow, where he studied at the 
American University in Cairo and received his M.A. in Arabic 
studies with a concentration in Islamic studies.
    And our last witness will be Tamara Wittes, who served as 
Deputy Assistant Secretary for Near Eastern Affairs from 
November 9, 2009, until January 31, 2012, and in this role 
oversaw the Middle East Partnership Initiative. She also served 
at State Department as Deputy Special Coordinator for Middle 
East Transitions. During her time in government, she was 
central to organizing the U.S. Government's response to the 
Arab Awakening. Before joining the U.S. Government, Dr. Wittes 
was a senior fellow at the Saban Center for Middle East Policy, 
a Middle East specialist at the U.S. Institute of Peace, and 
the director of programs at the Middle East Institute in 
Washington. Dr. Wittes was one of the first recipients of the 
Rabin-Peres Peace Award established by President Bill Clinton 
in 1997. Dr. Wittes holds a Ph.D. in government from Georgetown 
University.
    And we want to thank all of our witnesses here this 
afternoon. We look forward to hearing their testimony.
    And we would remind them that we operate under the 5-minute 
rule and there is a lighting system. The green light will be on 
for 4 minutes, the yellow light will come on telling you you 
have 1 minute to wrap up, and the red light means you are 
supposed to stop. So we hope you will stay within those bounds, 
and we hold ourselves to those same standards when we are 
asking questions.
    So, Dr. Kagan, without further ado, we will be happy to 
hear your testimony.

  STATEMENT OF ROBERT KAGAN, PH.D., SENIOR FELLOW, BROOKINGS 
                          INSTITUTION

    Mr. Kagan. Well, thank you very much, Mr. Chairman and 
members of the committee, and thank you for holding this 
hearing on this very important and difficult subject. Thank you 
for inviting me to testify.
    There is a tremendous amount of expertise at this table, 
and it is all to the left of me. I am not an expert on Egypt. 
My involvement has come about as a result of the Egypt Working 
Group that Michele and I founded, which attempted to, beginning 
in February 2010, urge greater democratic reforms in Mubarak's 
Egypt. I am mostly a historian of American foreign policy, and 
I want to begin with just recounting a little recent history to 
dispel some of what I think are some myths that have grown up 
and may give us some guidance as we move forward.
    When Michele and I formed this working group on Egypt in 
February 2010, our main effort was to urge the U.S. Government 
to urge the Egyptian Government of Mubarak to make some modest 
reforms leading up to the parliamentary elections in the fall 
of that year. We were not calling and, more importantly, the 
Egyptian people were not at that time calling for revolution or 
the overthrow of Hosni Mubarak or anything like that. They were 
calling for a more level playing field so that opposition 
parties could run and gain perhaps a small representation in a 
Parliament that was utterly dominated by the President's ruling 
party.
    It was obvious to us and it was obvious to, obviously, many 
Egyptians that Egypt was growing restive, partly because of the 
inability of opposition to take part in any part of the 
government; partly because Mubarak was ill, people were 
speculating that he might be succeeded by his son Gamal, and 
those raised the tensions even higher. And it was very clear 
that even some modest reforms leading up to the parliamentary 
election might have defused a lot of this tension that was 
growing.
    Unfortunately, Mubarak chose the opposite tack. He chose to 
tighten up. Not only did he not institute reforms, but he 
conducted the election in such a way as to assert even greater 
control over Parliament. Two months later, with the people 
amassing in Tahrir Square, he began to talk about some of the 
reforms that we had recommended and others recommended, but by 
then it was too late. Had he made the same proposals in 
November 2010 that he made in January 2011, it is quite 
possible he would still be in power today, for better or for 
worse.
    I am reviewing this history because I fear there is a myth 
growing about what happened in Egypt and what the U.S. role may 
have been. The U.S. did not throw Mubarak under the bus, as 
many autocrats in the region and some folks here in the United 
States seem to believe. Mubarak threw himself under the bus. 
And the only thing the U.S. did was not jump under the bus with 
him. The Obama administration actually was late, I think very 
late, reading the writing on the wall in Egypt, although, 
thankfully, made the right decision in the end.
    The question we face now is, are we continuing to repeat 
this mistake? We are faced with a similar situation that we 
were faced with Mubarak. We have an Egyptian military that is 
essentially saying, it is us or the radicals. And, of course, 
that was precisely how we got into the situation in the first 
place. We chose Mubarak and we got the Muslim Brotherhood that 
we have today in the position of power that they are in.
    So, as a result, we are left with less-than-ideal choices. 
There is an Egyptian military, which, although it has presided 
over free and fair elections, relatively, nevertheless shows 
constant worrying signs it is unwilling to relinquish power and 
allow an open and democratic Egypt to develop. Then there is 
the Muslim Brotherhood, which won those elections and whose own 
commitment to openness remains to be tested.
    Now we are also faced with a crisis regarding the NGOs. 
And, again, we need to be clear who the source of this crisis 
really is. It is not the Muslim Brotherhood. Unfortunately they 
have joined in, but it was not their decision to move in this 
direction. It was not public opinion in Egypt; this action is 
not the consequence of the revolution.
    And so, in that respect, I think comparisons with Iran are 
wrong. The NGOs were already being targeted under Mubarak's 
Egypt. And this latest stage in Mubarakism without Mubarak is 
what we are facing right now. It is being carried out by 
holdovers from the old regime, backed and, by all evidence, 
encouraged by the military, which, by the way, despite what 
people seem to think, is trying to hold on to power, not 
relinquish power.
    And let me just say in conclusion that the issue here is 
not just these NGOs. If it were just the question of these 
NGOs, we might, you know, be looking for room for compromise. 
But this is just the beginning of the process. As Michele has 
brought to my attention and I think to the committee's 
attention, there are other NGOs in Egypt that have not yet been 
targeted but who fear that they will be targeted. This effort 
to quash the NGOs is about quashing an open process in Egypt 
which the military feels threatened by. So I think we have to 
take it seriously as part of a broader problem, not just a 
specific issue.
    Mr. Chabot. Thank you very much, Dr. Kagan.
    [The prepared statement of Mr. Kagan follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Chabot. Dr. Dunne, you are recognized for 5 minutes.

STATEMENT OF MICHELE DUNNE, PH.D., DIRECTOR OF THE RAFIK HARIRI 
          CENTER FOR THE MIDDLE EAST, ATLANTIC COUNCIL

    Ms. Dunne. Thank you, Mr. Chairman, for the honor of 
testifying before the committee. By agreement with my 
colleagues, I am going to focus on the economic issues of post-
revolutionary Egypt.
    So, Egypt 1 year after the fall of Hosni Mubarak is a 
confused place in which the political transition is still 
disputed, insecurity is rampant, civil society is more harassed 
than ever, and an economic crisis is looming. Transitions from 
authoritarian government are typically difficult and lengthy, 
but in Egypt's case the fact that much of the Mubarak-era state 
remains intact is really complicating matters.
    Egypt's economy has been one of the victims of this 
situation, and an approaching economic crisis threatens to 
disrupt an already-troubled political process. Getting the 
economy back on its feet after the Egyptian revolution would 
have been a difficult task under any circumstances, but the 
Supreme Council of the Armed Forces, the SCAF, and the cabinet 
officials they have appointed have made it much harder than it 
needed to be.
    There are three things that the SCAF-led government has 
done and is doing that are particularly hurting prospects for 
an economic recovery. One of them is failing to reform police 
and internal security. The second is manipulating the political 
transition to serve military interests. And the third is 
mishandling offers of international assistance.
    On the first issue, on security, reforming the interior 
ministry, internal security forces, and getting regular 
uniformed police back on duty should have been a top priority 
for the SCAF. They certainly had the mandate to do that, but 
all they chose to do was to put the former interior minister on 
trial and to leave the rest of it more or less alone.
    We have seen the results of this. The lack of effective 
policing and the resulting rise in crime and insecurity were 
demonstrated quite horrifically on February 1st with the soccer 
riot in Port Said, as well as in many other instances, 
including of anti-Christian violence during the year. Tourists 
and investors will not return to Egypt until security does.
    Regarding the second factor, the political transition, 
businesspeople and investors always cite this as a problem. It 
is certainly a problem regarding the democratic transition 
itself, but it also inhibits economic recovery. There needs to 
be a clearer political timetable and one that is designed to 
serve the national interests, and not narrow interests of the 
military in protecting their prerogatives, so that investors 
can have the confidence to put capital in again.
    Regarding foreign assistance, the transitional government's 
decisions have been very ill-advised. As I am sure you are 
aware, they turned down a $3.2 billion loan from the 
International Monetary Fund and a $4.5 billion loan from the 
World Bank in June of last year, deciding instead to hold out 
for cash assistance from Arab and other donors. So far, only $1 
million in such assistance has actually arrived because all the 
donors, including the Arab donors, want to see a clear economic 
plan and sound policies.
    The Egyptian Government has now reengaged with the IMF and 
World Bank, but now it is going to be more complicated because 
of the existence now of an elected Parliament. And these 
institutions, such as the IMF, feel they now need the buy-in of 
the Parliament, which is dominated by Islamist forces that 
really don't have any experience in handling these kind of 
issues.
    Moreover, the transitional government has put at risk the 
assistance from the United States, as has already been 
discussed at this hearing, through this unprecedented campaign 
against American as well as Egyptian NGOs. This crisis and the 
other decisions regarding foreign assistance stem from a common 
approach, and this is the insistence of the transitional 
government that foreign aid must be delivered as direct budget 
support--not project aid, not support to NGOs, not investment. 
They want direct budget support with no strings attached.
    Because of all of these missteps, an economic crisis is 
brewing. Foreign currency reserves have dropped by more than 
half and perhaps as much as 70 percent. The government now only 
has enough currency on hand to pay for needed food imports, 
particularly wheat, for a few months. Unemployment has grown 
greatly. Ranks of unemployed workers have swelled by 37 percent 
in the last year. So a collapse of the Egyptian pound, 
hyperinflation, and a food shortage as a result of dwindling 
reserves have all become real possibilities.
    What all this means for the United States is that we really 
are challenged in this situation to try to indicate clearly to 
Egyptians that we are ready to support them as long as they 
remain committed to a genuine democratic transition, and, in 
fact, we would like to increase our support. But we simply 
need--it needs to be clear where they are going.
    I think now is not the time to give up hope on Egypt, but I 
agree with what the members have said, that we have to be clear 
about what the United States is willing to support, and that is 
a real democratic transition.
    Thank you very much.
    Mr. Chabot. Thank you, Dr. Dunne.
    [The prepared statement of Ms. Dunne follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Chabot. Mr. Trager, you are recognized for 5 minutes.

  STATEMENT OF MR. ERIC TRAGER, IRA WEINER FELLOW, WASHINGTON 
                 INSTITUTE FOR NEAR EAST POLICY

    Mr. Trager. Thank you, Mr. Chairman.
    I have submitted testimony for the record, so I would like 
to use my time to emphasize two key points.
    First, the current tension in American-Egyptian relations 
is entirely due to the acts of the Supreme Council of the Armed 
Forces, also known as the SCAF, which is the military junta 
that has ruled Egypt since Hosni Mubarak was forced from power 
just over a year ago.
    In December, the SCAF-appointed government raided 17 pro-
democratic NGOs, including some of those that are supported by 
the United States, and it has recently referred 43 NGO workers 
to criminal court, including 16 Americans. As part of this 
inquisition, six Americans have been prevented from traveling, 
including the son of the Treasury Secretary.
    At any point during the past 2 months, the SCAF could have 
intervened to defuse the resulting tension with Washington. 
They could have intervened in small ways, such as by simply 
letting the American democracy workers leave the country, or it 
could have intervened in bigger ways, such as by firing the 
government minister who is most responsible for these 
investigations. But, instead, the SCAF has doubled down, 
accusing the NGOs and their mostly Egyptian staffers of aiding 
a nefarious foreign plot to destroy the country. Indeed, the 
top headline of yesterday's Al-Ahram, Egypt's state-run 
newspaper, read, ``American Funding Aims to Spread Chaos in 
Egypt.''
    So we should have no illusions about the intentions of 
Egypt's military leaders. They are telling the Egyptian people 
that the United States is evil, while cracking down on the 
handful of Egyptian activists who are favorably disposed toward 
Western democracy.
    Second, this situation is likely to worsen as the SCAF 
devolves power to the recently elected Parliament, which is 
dominated by the Muslim Brotherhood. The Brotherhood has 
overwhelmingly supported the crackdown on the NGOs and intends 
to appoint one of its senior political officials as Minister of 
International Cooperation so that it can monitor future 
contributions to pro-democratic NGOs. In its most recent 
statement, issued earlier today, the Brotherhood said that 
American funds had been used ``for the demolition of Egypt and 
the destruction of society.''
    The Muslim Brotherhood holds similarly hostile views on 
other U.S. interests. Brotherhood leaders have repeatedly 
called for putting the Camp David Accords to a popular 
referendum, which the Brotherhood apparently sees as a viable 
strategy for sinking the Egyptian-Israeli peace treaty without 
being blamed for it directly. The Brotherhood's rise also 
spells trouble for Egyptian Christians and secularists. When I 
visited Egypt in December, Muslim Brotherhood parliamentarians 
told me that they intend to criminalize criticism of the 
sharia. It should be noted that these kinds of theocratic 
prosecutions are already taking place.
    We should harbor no illusions about the Brotherhood's 
ability or willingness to change. For starters, the Muslim 
Brotherhood is not like most other political parties. Becoming 
a full-fledged Muslim Brother is, in fact, a 5- to 8-year 
process during which a Muslim Brother's commitment to the cause 
is tested repeatedly as they ascend through five tiers of 
membership. This is not an organization inclined toward 
rethinking its ideology, since every member has been 
indoctrinated in it.
    Perhaps more importantly, the very structure of Egyptian 
politics will likely encourage the Muslim Brotherhood toward 
more extreme, rather than moderate, positions. Its top 
political competitor is the Salafist Nour Party, which finished 
second to the Muslim Brotherhood and controls nearly a quarter 
of the Parliament. The Nour Party seeks to implement Islamic 
law as it was practiced in the time of the Prophet Muhammad. 
Non-Islamist parties, by contrast, are weak. They are deeply 
divided among far-left nationalists, socialists, and a 
smattering of liberals, and their support seems unlikely to 
grow.
    Egyptian domestic politics will, thus, be a competitive 
theocracy between two competing Islamist visions, that of the 
Muslim Brotherhood and that of the puritanical Salafists. 
Recognizing that the Brotherhood has proposed a coalition 
government in which Salafists will be given control over the 
education ministry, the prospect of Egypt's next generation 
being educated in Salafist-run schools suggests that the U.S.'s 
current challenges in Egypt will likely grow more difficult in 
the future.
    For Congress, this unfortunate outlook means two things. 
First, in the short term, foreign military aid should be 
suspended until, at the very least, the American democracy 
workers are permitted to leave Egypt. American aid to Egypt is 
not an entitlement; it is one component of a broader 
partnership between Washington and Cairo. And the most basic 
aspect of that partnership, or any partnership between 
countries, is that citizens be permitted to travel safely 
within each other's borders.
    Second, Congress should ensure that future aid to Egypt is 
conditioned on the achievement of narrow U.S. interests. These 
include protecting equal citizenship rights of religious 
minorities, abiding by Egypt's 1979 peace treaty with Israel, 
and cooperating with the United States in combating violent 
extremism.
    Thank you for listening.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. Trager follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Chabot. Our final witness this afternoon will be Dr. 
Wittes.
    And you are recognized for 5 minutes.

  STATEMENT OF TAMARA WITTES, PH.D., FORMER DEPUTY ASSISTANT 
          SECRETARY OF STATE FOR NEAR EASTERN AFFAIRS

    Ms. Wittes. Thank you, Mr. Chairman, Ranking Member 
Ackerman, distinguished committee members. With your 
permission, I would ask that my full statement be entered into 
the record.
    Mr. Chabot. Without objection, so ordered.
    Ms. Wittes. Thank you.
    And I would like to emphasize that I represent only myself 
here today. I have no institutional affiliation.
    While the events of the past year have unsettled many 
observers, the fact remains that Egypt's year-old revolution 
presents the United States with a strategic opportunity--an 
opportunity to advance our interests through a stronger 
partnership with the Egyptian people and with a democratic 
Egypt. But the next 6 months presents special challenges to 
seizing that opportunity for a new partnership in the years to 
come.
    The Supreme Council of the Armed Forces has committed to 
transfer executive authority to an elected President by June 
30th. But right now the Egyptian people are facing a 
deteriorating economy, an interim government with questionable 
intentions, police and intelligence services who fail to 
provide basic security, and a set of political elites who have 
yet to adjust to having real responsibilities and real 
accountability.
    Dr. Dunne has outlined the risks of a crisis, and the 
Egyptian people need and deserve the support of the 
international community in facing all these challenges. But the 
behavior and choices of the current transitional government 
make it exceptionally complex to support Egypt during this 
crucial phase.
    Over the past year, the SCAF came to behave not so much as 
a caretaker but as a political actor seeking to shape the 
transition to accord with its own preferences. The crackdown on 
independent civil society groups in Egypt is part of a broader 
struggle taking place between those working to advance a 
transition to democracy and elected government and those who 
are seeking to preserve their own positions, power, and perks 
from the old system. The latter group are willing to 
manufacture crises and to blame outside forces and hidden 
conspiracies to advance their selfish cause.
    The goal of this manufactured crisis over NGOs is not 
primarily to tweak the nose of the United States. Dozens of 
NGOs have been caught up in this investigation; the vast 
majority of them are Egyptian. The goal is to demonize an 
entire sector of Egyptian society by associating them with an 
alleged foreign conspiracy and by making the current government 
the defender of Egyptian interests.
    America's aid to Egyptian civil society is and has been an 
expression of our desire to move beyond a U.S.-Egyptian 
relationship that was largely defined by government-to-
government interactions and to build a broader partnership with 
the Egyptian people. And, thus, the dispute over U.S. 
Government funding to NGOs working in Egypt is not about the 
law and it is not about money. It is about control. Although 
the SCAF themselves are the greatest beneficiaries of American 
taxpayer funds, they are apparently now willing to risk that 
aid in an effort to deflect criticism of themselves at home. It 
is a very shortsighted and self-defeating approach.
    But the United States cannot afford to take a shortsighted 
approach to Egypt's transition. It is in American interests to 
build a cooperative partnership with the Egyptian people, which 
can be stronger, more lasting, and more equitable than the one 
we had with Hosni Mubarak. A democratic Egypt will enhance 
regional stability, strike a blow against violent extremism, 
and improve the prospects for liberty elsewhere in the region 
and indeed around the world.
    To respond to this crisis by immediately terminating all 
financial assistance to Egypt would be a strategic error. This 
is the time to continue our outreach to the Egyptian people, to 
support their efforts at democratic development, to respond to 
their urgent economic needs, and to forge the basis for mutual 
understanding and a new partnership with a democratic Egypt.
    Mr. Chairman, I am confident in the Egyptian people's 
determination to achieve a transparent, accountable government 
that respects their rights. And the United States has a keen 
interest in the outcome of their efforts. I am equally 
confident in the interests that Americans and Egyptians share 
as the basis for a renewed partnership between our two 
countries. We share interests with the Egyptian people in 
combating terrorism, in advancing regional peace and security, 
in preventing the spread of nuclear weapons, and in promoting a 
dynamic Egyptian economy rooted in free markets and open to 
global trade.
    But that renewed partnership must be built with the 
Egyptian people and with the democratic government that answers 
to them. Right now what we must do is preserve the 
possibilities of partnership and avoid playing into the hands 
of those within Egypt who do not support those efforts to 
betray us as enemies of the Egyptian people and of Egypt's 
national interests. It is simply not true.
    If we are respectful of Egyptians as they undertake their 
political process and if we are consistent and transparent in 
our continued outreach, I believe that we will find the basis 
for a stronger partnership moving forward.
    Thank you for the opportunity to share my views.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Ms. Wittes follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Chabot. We appreciate the testimony of all the 
witnesses here this afternoon. And I now recognize myself for 5 
minutes to ask questions.
    One element of the NGO raids which has gotten considerable 
attention has been the central role of Egypt's Minister of 
International Cooperation, Faiza Abul Naga. In an editorial, 
The Washington Post recently noted that, ``The campaign against 
the Internation Republican Institute, National Democratic 
Institute, and Freedom House, along with a half-dozen Egyptian 
and European groups, is being led by Minister of International 
Cooperation Faiza Abul Naga, a civilian holdover from the 
Mubarak regime. Ms. Abul Naga is pursuing a well-worn path in 
Egypt''--excuse me. I skipped something here. ``Ms. Abul Naga, 
an ambitious demagogue''--their words, not mine--``is pursuing 
a well-worn path in Egyptian politics, whipping up nationalist 
sentiment against the United States as a way of attacking 
liberal opponents at home.''
    Referring to the U.S. funding of NGOs like IRI and NDI, she 
is reported to have said yesterday, and I quote again--this is 
her quote: ``Evidence shows the existence of a clear and 
determined wish to abort any chance for Egypt to rise as a 
modern and democratic state with a strong economy since that 
will pose the biggest threat to American and Israeli interests, 
not only in Egypt but in the whole region.''
    It is my belief that, as the chief agent provocateur in 
this ordeal, Abul Naga has shown very clearly that she cannot 
be trusted as the custodian of American taxpayer dollars. And, 
accordingly, U.S. assistance should be conditioned on her 
removal as the administrator of foreign aid.
    What are the thoughts of the panel members here this 
afternoon? And we could go down the line, if you would like to 
start, Dr. Kagan.
    Mr. Kagan. Well, thank you, Mr. Chairman.
    I really feel that we can't begin our relationship with 
Egypt in a situation where they hold a gun to their heads and 
say, ``If you don't do what we say, we are going to blow 
ourselves up.'' That is the kind of relationship we now have 
with Pakistan. Right now, they are basically saying they will 
destroy their economy unless we swallow everything that they 
want us to swallow.
    And I think this is a critical moment in our relationship 
with them. I think the Egyptian people need to be presented 
with the consequences of the decisions that their military and 
perhaps the leadership of the Muslim Brotherhood and this 
current government are taking. And if we, it seems to me--
again, this isn't just about a narrow issue. If we back down at 
this moment, we will be going back to where we were in the 
Mubarak days. We will be giving a blank check to a new group's 
desire to quash any democratic principles and democratic 
behavior, which I think are profoundly in our interest.
    I mean, I believe that in these difficult times in Egypt, 
when things are complicated and hard to know where things are 
going, we need to stick to some basic principles about whether 
we are giving our aid to them or not, based on whether they are 
holding to promises to move in a more open direction, whether 
they are maintaining existing obligations, treaty obligations, 
to Israeli, et cetera. We need to be the ones, at least for our 
own sake, sticking to the principles that we think are 
essential.
    This aid is not--you know, we don't give it for charity 
reasons, although I think the American people wish the Egyptian 
people well. We give it in our own interests, and we have to 
make sure that those interests are respected.
    Mr. Chabot. So would you agree, then, that, you know, our 
tax dollars, for example, since she is the one that is 
overseeing this, should be conditioned, for example, on her 
removal?
    Mr. Kagan. I would certainly--or reprogram the money in 
such a way that it doesn't go through her, or something. There 
is certainly--she should be the one, since she started this--I 
wish I--it is obvious, however, this is not just her.
    Mr. Chabot. Right.
    Mr. Kagan. It is obvious, also, that the military is 
directly involved in this. I mean, I can't believe when I have 
seen statements suggesting the military can't do anything about 
it and doesn't know how this happened. This is the military and 
others in the system--I think Michele may talk to that, as 
well--who are pushing this same policy.
    Mr. Chabot. Thank you.
    Dr. Dunne?
    Ms. Dunne. Thank you, Mr. Chairman.
    You know, there is a long history on this. Minister Abul 
Naga was in the government under Mubarak in a couple of 
different positions. And she has been involved in trying to 
oppose the democracy and governance assistance that the United 
States gives to Egypt and specifically in trying to prevent the 
United States from being able to give aid directly to NGOs 
without the Egyptian Government having a veto over that in 
advance.
    This has been a long struggle. So I quite agree with what 
Dr. Kagan said and with what the Post editorial said, that this 
goes back to the Mubarak era. This is not a result of the 
revolution. It is simply that she has the opportunity to push 
it more aggressively right now because Minister Abul Naga and 
others have tried to link the NGOs to the ongoing 
demonstrations, demonstrations against continued military rule, 
and have tried to tar NGOs with that, I think, and have created 
suspicion in the minds of the military leaders that somehow it 
is civil society that is opposing them and therefore civil 
society needs to be rolled back.
    So I agree that there needs to be new thinking in the 
Egyptian Government, there needs to be a recognition that a 
robust and free civil society is just as important to the 
democratization process as are free elections, and that these 
kind of NGOs are--they are trying to do the kind of work in 
Egypt that they do all over the world. There is nothing unusual 
or suspicious about the work that either American or Egyptian 
NGOs are doing. There needs to be a new understanding between 
the United States and Egypt about this issue.
    Mr. Chabot. Thank you.
    My time has expired. So, Mr. Trager and Dr. Wittes, if I 
could get a real quick response from both of you.
    Mr. Trager. Thank you, Mr. Chairman.
    I mean, I agree with what has been said----
    Mr. Ackerman. Mr. Chairman, you have unanimous consent to 
continue.
    Mr. Chabot. Okay. All right. We will make it quick anyway.
    Mr. Trager. No, I agree with what has been said. Faiza Abul 
Naga is a symptom of a much deeper problem. I think it is 
really important to emphasize that what she is doing regarding 
these NGOs she is doing because it is a political winner. A 
recent Gallup poll showed that 71 percent of Egyptians oppose 
Egypt receiving U.S. aid.
    And I think that that is really the crux of the problem 
that we face in Egypt. We should not focus exclusively on her. 
Removing her wouldn't change the fact that, you know, as the 
other panelists have said, we are going to have to reframe our 
relationship with a new Egypt.
    Mr. Chabot. Okay. But just to get this straight, we got 
this trillion-dollar-plus deficit each year, and we are sending 
money over there that 70 percent of the Egyptians don't want, 
right?
    Mr. Trager. That is right. And, I mean, I think the most 
important thing we could do right now is make it very clear 
this is not an entitlement, this is part of a broader 
partnership. So I think that gets at your question.
    Mr. Chabot. Thank you.
    Dr. Wittes?
    Ms. Wittes. Thank you.
    I think you have already heard from my colleagues that 
there is a danger to over-personalizing this, because there is 
a broader issue at stake inside Egypt. And I think, you know, 
we also, wisely, don't govern by polls. And the opposition to 
American assistance I think reflects a concern about the nature 
of the relationship that existed previously between the U.S. 
Government and the government of Mubarak and a desire to have a 
more equitable relationship.
    So I think it is important that we not begin that new 
relationship with a set of ultimatums, just as Dr. Kagan said 
we shouldn't begin that relationship by allowing them to lay 
out a set of ultimatums. We need to resolve this issue; we need 
to resolve it through dialogue.
    I also think it is worth remembering that if, indeed, as I 
think all of us still expect, we have a transition to civilian 
authority in the next 6 months or so, it is very likely that 
there is going to be a thorough overhaul of the cabinet at that 
time.
    Mr. Chabot. Okay. Thank you very much.
    My time has expired. The gentleman from New York, Mr. 
Ackerman, is recognized for 5 minutes.
    Mr. Ackerman. Thank you, Mr. Chairman.
    I think it is a little bit more complicated than has been 
generally indicated. I think if one looks at a family when 
people are very young and developing, there comes a time when 
they start asserting themselves and demanding their 
independence, but they don't quite tell you not to give them 
their allowance.
    I think it is not that the Egyptians don't want our money. 
I think it is anything but that. They want everybody's money 
they can get, and understandably so. What they don't want is 
the image of themselves facing their public, which is starting 
to develop a whole new sense of nationalism and outlook and 
self-definition, that they don't want to be seen as being 
obligated to or pushed around by somebody that they have worked 
with but who their public sees as the enemy.
    An overlayer on top of that is that they understand the 
realities. There is a difference between people who can 
pontificate because they are in the general public and people 
who are actually making the decisions because the decisions 
have consequences. You can't play chess and say, ``That is my 
spot,'' and move into it without thinking that the other guy 
has a move also. You can't just say, ``Well, screw them because 
this and that and I don't like the way they are behaving,'' and 
expect that they don't have a move to make also. ``Let's just 
walk away from Egypt if they don't behave the way we want them 
to behave''; it is easy to say that if the effect of one's 
words don't have any consequences because you are home free and 
able to say it. But we, as policymakers acting on behalf of the 
country, have to say, what do they do when we do X?
    And I think that it can't be that we have to just hold our 
nose and breath until we turn blue and get them to do what we 
want, because the world doesn't work that way in reality. They 
are facing their public.
    This is a government, I believe, that didn't have too many 
consequences, historically, throughout the dictatorial years 
that they are now looking to change from. They said something, 
and as Egypt spoke, so it was said and so it was done. And that 
came down from the pharaoh, and the military followed and 
everybody else followed and, you know, people grumbled and did 
what they did. People are starting to feel their oats right 
now. They are looking for scapegoats because they--``Huh? Me? I 
am not responsible.'' And the military and the officials and 
the holdovers from the Mubarak regime are looking to point the 
finger at somebody.
    And in every country that we see this in, it is always the 
same. It is always pointing and saying, ``These are outside 
figures. We have to find somebody responsible for the riots in 
the streets. Somebody paid 700,000 people to show up in the 
streets of our country.'' And there are likely suspects; it is 
usually Israel and usually the United States. And when you 
find, you know, organizations that are acting with the purest 
of interests, usually, acting with all good intentions and are 
there because they want to be there and help the Egyptian 
people, they are the first ones to get blamed, you know. They 
are scapegoated. And now these young women and men are in some 
difficulty, and we have to try to get them out of it.
    But we can't just turn our back on this very big 
relationship of 80-plus million people, the largest country in 
the Arab world, and not expect bad things to happen. You know, 
we should have learned from September 11th that if you don't 
visit bad neighborhoods, they will visit you. We don't need 80 
million people to turn into the same bad neighborhood that we 
see in a couple of other countries--that they have not been 
part of to this point.
    How do we keep them--the real question that we need to turn 
to our friends and academia to give us some gleanings and 
guidance is: How do we get them on track? not: How do we beat 
them into submission? So maybe with that kind of perspective, 
you know, you can give us some guidance.
    I thought I knew how to do this with my kids, but these 
aren't kids, you know; these are adults, and they have the 
ability to move with us and move against us, and the popular 
thing is to move against us right now. That is how we all get 
elected, and that is how they all get elected, too, because 
they are looking at the prospect of getting elected now.
    Mr. Kagan. Speaking for myself, although I think that 
others would agree, I don't think we disagree about not wanting 
to sever our relations with Egypt. The question is how to 
manage that relationship effectively.
    Mr. Ackerman. That is the question.
    Mr. Kagan. And, in fact, the question about----
    Mr. Ackerman. The question is do you manage it effectively 
by threatening them back?
    Mr. Kagan. It is not--I guess I would have to--first of 
all, I think I disagree somewhat with your analysis of what is 
going on in Egypt. This is not simply a public nationalist 
outcry. This specific issue with the NGOs, the Egyptian people 
didn't think twice about this issue until it was raised by 
Fayza Abul-Naga. She was the one who created this issue, as it 
had been before. The Egyptian people now have been spun up on 
this issue, that is true, but the reason this issue was raised 
was not because of the resentment of the Egyptian people at the 
United States, it was raised as part of an internal power 
struggle for people who are holdovers and the military to stay 
in power. So this is not----
    Mr. Ackerman. I would strongly disagree with you that this 
was orchestrated at all by the military. I think your first 
inclination as to who orchestrated it is true, and the military 
just can't afford to sit by on the sidelines and being out--I 
won't say what I thought, but being----
    Mr. Kagan. I know what you thought.
    Mr. Ackerman. Looking less nationalistic without jumping in 
and saying, me, too, you know. Oh, yeah, you think you are a 
good whatever whatever it is? I am a better whatever whatever 
it is than you are. We see that in American politics all too 
much today, and you are seeing the same thing happening there.
    Mr. Kagan. I have to say I disagree with that analysis of 
the Egyptian military. I don't think they simply jumped on a 
bandwagon. I think that they--and Michele has made this point 
and others have made this point--they do want to quash these 
protests.
    Mr. Ackerman. Oh, absolutely. They want to take the finger 
from being pointed to themselves. They need a scapegoat also. 
They were part of Mubarak. I mean, you know, they all got their 
papers signed by him. They worked for him.
    Mr. Kagan. So the larger question, Mr. Congressman, is if--
let us say we go down the route that you are suggesting.
    Mr. Ackerman. I am not suggesting a route.
    Mr. Kagan. Let us say that we don't want to punish them by 
cutting off the aid, okay, as a hypothetical. At what point--I 
mean, how far can this go?
    Mr. Ackerman. I am not saying that either.
    Mr. Kagan. Yeah.
    Mr. Ackerman. Whether we want to or not, we may have to 
legally, as I indicated before. But the question is how to best 
use the aid if we can use it, and how to best use the 
situation, because we have to accomplish two things. We have to 
get those people out of the predicament that they are in, and 
we have to get ourselves and Egypt in a better position because 
they are important to us, as we are important to them, and how 
do we take advantage of that mutual dependency rather than just 
end it, which could be very, very disastrous in the overall 
region.
    Mr. Kagan. Certainly. And I want to pass this on to others 
who I know have thoughts. What I would argue is it may be 
salutary for the Egyptian people to know that there can be a 
very high price, and I don't know that we are doing them any 
favors if we try to pretend that there is no price for the kind 
of behavior that their military and their government is 
carrying out. But let me just let this----
    Mr. Chabot. The gentleman's time has expired, but if other 
panelists would like to comment, they can briefly.
    Ms. Dunne. Thank you, yes. I would like to add something to 
the Congressman's question of how do we get them back on track, 
or what can we do. I think, you know, the United States has to 
try to send a two-sided message here. I mean, the one side is 
that we really want to help Egypt in this transition. We want 
to do more for them.
    The administration has put forward--you know, has a debt-
relief plan. I think we should be moving toward opening free 
trade talks. I mean, there are even new and expanded forms of 
assistance that we would like to offer to a democratizing 
Egypt, so somehow send them the message that we are not out 
here to beat you up, we are out here to help you and support 
you, and there are a lot of good things that we can do 
together. However----
    Mr. Ackerman. It is hard for our Government to convince the 
American people of that sometimes.
    Ms. Dunne. Right. This issue has to--this civil society 
issue has to be resolved, and I do think that--I agree that 
maybe it wasn't the military who instigated this campaign 
against NGOs, but they have gone along with it, and they do 
hold executive authority. Until a President is elected, they 
are in charge, and they will have to be responsible. So maybe 
we can help them find a way out of this crisis, but they need 
to ultimately take responsibility. It really isn't legitimate. 
They can't do it.
    Mr. Ackerman. That is basically what I said in my 
statement. Other parties have to do what is in the real best 
interests of their country.
    Mr. Chabot. Mr. Trager, and then Dr. Wittes.
    Mr. Trager. Thank you, Mr. Chairman.
    Just sort of jumping off what Michele said, in terms of 
portraying the United States as wanting to help Egypt, I think 
it is important to emphasize that the NGOs were actually part 
of that transition. I mean, what these NGOs were doing to a 
limited extent, but were doing in Cairo is training people for, 
you know, to participate in the elections that the military 
insisted on organizing, and I think that point really needs to 
be put out there. I mean, the second thing----
    Mr. Ackerman. If I could just add.
    Mr. Trager. Yeah.
    Mr. Ackerman. Those NGOs were there before this military 
ever thought there was going to be a free and fair election.
    Mr. Trager. Yes.
    Mr. Ackerman. Okay.
    Mr. Trager. But what they were doing during--I mean, they 
had many more activities over the past year. They were 
traveling around the country; they were helping to build, you 
know, democratic support, teach people how to vote, how to 
organize for elections, things like that, which is why it is 
ironic that they have been targeted in this way. And I also 
want to reiterate what I was upset about, the military's role 
in this. The state-run press has been very, very aggressive in 
going after these NGOs and portraying them as American pawns, 
and that is the Egyptian citizens.
    The second point that I think is worth making is we need to 
set clear red lines as to what kind of behavior we are willing 
to tolerate, because this aid should not be an entitlement, it 
should be something that is given to help certain ends. One of 
those ends may be the promotion of more democratic rule, one of 
them is the treaty with Israel, one of them, of course, is the 
safe travel of our citizens, and when they pass those red 
lines, we need some kind of response.
    Mr. Ackerman. You didn't include the also important topic 
that we need them to do, and that is to cooperate with us on 
the international war on terrorism and not to join on the other 
side.
    Mr. Trager. You are right. I mean, on that, Egypt is 
heading in an especially worrying direction, given the rise of 
the Muslim Brotherhood, the likelihood they will control the 
next government, and their inclination toward inviting more 
radical Islamist parties into the coalition, particularly the 
Salafist al-Nour Party. But also there was an attempt to give 
al-Gama'a al-Islamiyya certain roles within the committees of 
the new Parliament. Al-Gama'a al-Islamiyya is a U.S.-designated 
terrorist organization.
    So Egypt is moving in a worrying direction, and I think it 
is important to really make a statement now about what kind of 
behavior we will want to tolerate.
    Mr. Ackerman. I am sorry, Mr. Chairman, but do you see the 
victory at the polls, to the extent that it was, of the Salafis 
as something that was a welcome occurrence in the eyes of the 
Brotherhood?
    Mr. Trager. No, no, I think it was something that surprised 
them.
    Mr. Ackerman. I think it shocked them. I think they are 
more fearful of that than the democratic kids that were dancing 
in the streets and wanted, you know, to have an economic 
opportunity to be like the kids in Israel.
    Mr. Chabot. Dr. Wittes, go ahead if you want to comment 
briefly.
    Ms. Wittes. Thank you, Mr. Chairman.
    You know, Congressman Ackerman, in your opening remarks you 
mentioned that the demand for dignity is behind a lot of the 
events of this past year, and I think that that really gets at 
the heart of what we are talking about here. It is dignity, but 
it is also opportunity. The young people of Egypt who made this 
revolution didn't just want to overthrow their government, they 
wanted the opportunity for betterment that was denied to them, 
denied to their parents, and they know that that means they 
need to be connected to the world. They know that--and they 
want to be connected to the world, and they want to be 
connected to the West, and they want to be connected to the 
United States.
    So if the question is how can we help to create a 
structure, a broader structure, that can incentivize a 
transition that gets back on track, I think we have to pay 
attention to what it is they say they want, and as Michele was 
suggesting, I think we have tools at our disposal we can use to 
try and act as magnets. But I think this is really a case where 
we have to stay engaged, we have to do a lot of talking, and we 
can't sort of lash out and cut off our own options as we engage 
in that dialogue.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from Virginia Mr. Connolly is recognized for 
5 minutes.
    Mr. Connolly. Just 5 minutes?
    Mr. Chabot. 5 hours.
    Mr. Connolly. Thank you, Mr. Chairman.
    Just an observation, Dr. Wittes. Everything you just 
described could have been said in 1979 about Iran. All they 
want is to better their lives, you know, and the old regime 
didn't allow for it, and that is all they are really trying to 
do, and we need to keep the dialogue going, and, you know, we 
shouldn't just, you know, lash out at them and so forth. I am 
not saying that what is going to happen in Egypt is necessarily 
analogous to what happened in Iran, but what you said, I was on 
the Hill in those days, was eerily reminiscent of things one 
could have heard back in 1979.
    Let me ask this question, and maybe I can start with you, 
Dr. Kagan, but what is different about this is somebody, 
whoever, the military, the transitional government, I don't 
know, certain elements of the Muslim Brotherhood or the 
Salafists or somebody, somebody decided to pick a fight with 
the United States, deliberately, consciously pick a fight with 
the United States, on a bipartisan basis and knowing with the 
full knowledge, malice aforethought, we were their largest 
bilateral aid donor, we have trained their military since Camp 
David Accords, we have provided the equipment for their Air 
Force and everything else. It is a terribly important 
relationship, and they made a calculation either that it wasn't 
really a real risk, or, if it was, it was still worth it, given 
what other agenda, domestic, political, whatever it might be. 
And that, to me, is what is troubling.
    I mean, putting aside all other considerations, I just 
wonder if you might comment on that, because, you know, just as 
they have domestic politics, so do we, and there is a limit to 
what we can explain to our own constituents about--in fact, the 
chairman, I think, gave voice to it, you know. We have this 
multibillion-dollar aid relationship, and 70 percent of the 
polls say they don't really want it, and meanwhile they are 
sort of all but kidnapping, you know, NGO reps, U.S. NGO reps, 
who are hardly undermining democracy or established 
institutions in Egypt, they are there to help with the 
democratization, as they do in so many other countries around 
the world.
    Mr. Kagan. It is an excellent question, Congressman. I 
think the answer is that the people who did this--and it was 
not the Muslim Brotherhood and the Salafists, it was this 
minister, I think, backed by the military--they do not, did 
not, and maybe even do not believe that the aid is really 
threatened. I have been struck in conversations with 
administration officials who have met with Tantawi and others, 
and every time they have a meeting with him, he is surprised 
that there was talk about cutting off the aid. And so I think 
where we are with the Egyptian military right now is they think 
our relationship with them is so vital that they can do this, 
and at the end of the day we still won't cut off the aid. And 
it is that mentality that I am worried about going forward with 
in the relationship.
    Mr. Connolly. Dr. Dunne.
    Ms. Dunne. Thank you.
    Yes, I agree with you, Congressman, that someone did pick a 
fight deliberately with the United States, and this has been 
deliberately escalated. That seems quite clear. It is partly to 
get at civil society and get at the liberals through the United 
States, you know, and I----
    Mr. Connolly. Trying to go after liberals is never a good 
thing, but go ahead.
    Ms. Dunne. And I agree with what Dr. Kagan said, that I 
think the SCAF didn't really believe that U.S. aid would be 
threatened.
    I also think that we don't understand all the internal 
dynamics of this, and that there might be other parts of the 
Egyptian Government who wouldn't be that sad to see the 
military lose its assistance from the United States. I don't 
think all the dimensions of kind of, you know, the internal 
machinations behind this crisis are clear to us.
    Mr. Trager. I think that is right, but, I mean, I think, 
you know, one thing to think about in terms of framing our 
partnership with Egypt and moving forward--and certainly 
everyone here believes that we have to have a relationship with 
Egypt given its centrality in the region--is what does it say 
about the political intelligence of the military that would 
prevent these NGOs, these NGO workers, including the son of a 
Cabinet Secretary, from traveling? I mean, if this is our 
partner in Egypt and our key ally in Egypt, we are in big 
trouble.
    And I agree with what Bob Kagan said about the fact that 
the military really doesn't think that this is on the line, 
thinks that America would never cut the aid because it views it 
as an entitlement, and when they are preventing Americans from 
traveling, when they are gratuitously cracking down on NGOs, 
when they are using the press to spread anti-Americanism in an 
environment that is already increasingly inclined toward 
extremism, that is a very worrying thing. And I think that now 
is the time to put them on notice because otherwise there will 
be bad behavior, more bad behavior.
    Mr. Ackerman. Will the gentleman yield?
    Mr. Chabot. The gentleman is granted an additional minute 
to yield if he would like to because his time is expired.
    Mr. Connolly. I would, and I want to also, Mr. Chairman, 
with your indulgence allow Dr. Wittes also to have her chance 
to reply.
    Of course, Mr. Ackerman, I would yield.
    Mr. Chabot. Okay. We will give the gentleman 2 minutes, 1 
for Dr. Wittes to respond and the next for Mr. Ackerman.
    Mr. Ackerman. I just want to insert one notion into our 
thinking. We are looking at the action of one person motivated 
by whatever as the basis of the relationship between two 
countries. I mean, just think, if an American judge, presented 
with a formal accusation from an American person or a person in 
America, could stop a French citizen who maybe is an 
international financier from getting on a plane and leaving the 
country at the last minute, does that speak of America's 
attitude toward France?
    I mean, I know Egypt is not the democracy that we think 
that we are, but nonetheless, when you have somebody presenting 
a case to a judge, and a judge orders a thing, and there is an 
order issued, I mean, this is something to think about. Of 
course, here we all wait and see because everybody is innocent 
until whatever whatever, but there everybody piled on, and 
there is different motivations. But it is just something to 
think about in the background as we ponder this through as far 
as is this the relationship.
    Mr. Chabot. Dr. Wittes, if you want to respond to Mr. 
Connolly.
    Ms. Wittes. Thank you.
    Well, let me say in the uncertain environment that Egypt 
has faced over the past year, nationalism sells, and I think we 
have seen that, that it sells very effectively. But I don't 
think it is in any way a foregone conclusion that Egypt is 
therefore destined to go down the same sort of reactionary 
rabbit hole that Iran went down after Khomeini took power; 
Khomeini, who went and purged everyone who disagreed with his 
plan for the establishment of an illiberal theocracy.
    That is not what we see in Egypt today. What we see in 
Egypt today is a very contested, very pluralistic environment, 
and a lot of people, notably those in civil society, but also 
many in Parliament, who are keenly committed to establishing 
the democratic institutions that are necessary to prevent that 
sort of theocratic takeover from occurring. And that is one of 
the reasons why continued support for civil society is so 
important, because it is civil society that will help hold 
these new institutions accountable.
    So I think what we really need to do is avoid playing into 
this cheap anti-Americanism and support those who are going to 
follow the constitution-making process, hold new democratic 
institutions accountable, and offer up this vision of what a 
relationship between the United States and a democratic Egypt 
would look like.
    Mr. Connolly. Mr. Chairman, if--I agree with you 
wholeheartedly, and I absolutely agree that the comparison is 
invidious. Having said that, I also believe we make a mistake 
if we look vacillating and weak on the issue of U.S. nationals 
being involuntarily detained in an allied country. That is not 
okay, and it must be dealt with, and frankly there have to be 
consequences if it is not.
    Thank you. I yield back, Mr. Chairman.
    Mr. Chabot. Thank you.
    The gentleman's time has expired. We will go to a second 
round here, and we will try to keep it within the 5 minutes if 
anybody has any additional questions, at least we will up here. 
I will make sure that I don't go over 5 minutes myself. So if 
you could keep your answers within my 5 minutes, I would 
appreciate that as well.
    First of all, Mr. Trager, you made a comment relative to 
U.S. aid not being an entitlement or shouldn't be an 
entitlement, and I agree with you. I think that is one of the 
problems that this country has made over the years is that we 
tend to give a lot of aid to a lot of countries, and we 
oftentimes tend to accept, even though we may not like it, all 
kinds of behavior which is anathema to us or the principles 
that we stand by, and that we are afraid to withdraw that aid 
or cut it off or reduce it because we think we will get even 
worse out of this country, or somebody that we were at least 
working with will go completely off the deep end, and so we 
keep giving a lot of aid out.
    Now, if you look at it as a proportion of our budget, you 
know, people can argue, well, it is a relatively small 
percentage, et cetera, but, again, we are $1.3 trillion in 
deficit spending this 1 year alone, so it is a real problem.
    What would be your response to that, or what should we do? 
How should we handle that particular issue so that countries 
around the world take the United States seriously; that we give 
the money, but they do have to stick with certain principles 
that we as a Nation stand for, freedom, and not abusing your 
citizens, and not spitting in our face, which is done quite 
frequently around the world, and done without any consequences 
oftentimes? So if you would like to respond.
    Mr. Trager. Thank you, Mr. Chairman.
    I mean, I think the key is reframing the aid, you know, as 
we agree, away from being an entitlement and toward being an 
exchange. I mean, it is true that the Egyptian revolution was 
about dignity and trying to reclaim dignity, and one of the 
ways to, you know, help them do that and to create a more equal 
partnership with them is to make an exchange in which aid is 
given because they satisfy or help satisfy certain very narrow 
American interests.
    There may also be certain areas of common interests on 
which we can work together. For example, the Muslim Brotherhood 
leaders that I spoke to are as concerned as we are about the 
instability in the Sinai and the possibility that that 
instability will create a crisis between Israel and Egypt, 
which they say they want to avoid. But the point is using the 
aid in such a way that we are focused on narrow interests and 
not on sustaining a long-term relationship with military 
leaders who, frankly, will soon be exiting power. America has a 
record of betting on the wrong horse far too frequently in the 
Middle East, and I think we need to use the aid to be more 
nimble.
    Mr. Chabot. Thank you.
    One follow-up, one more thing, and then if anybody would 
like to address that. I have 2 minutes left, and I am going to 
stick to it.
    Egypt has traditionally been looked at by much of the 
region as the leader in the Arab world because of population 
and history and all the rest, and I think rightfully so. With 
what they are going through right now, how does that look in 
the near and long-term future, and what can we do to make sure 
that if they are a leader, that it is a leader in the right 
direction?
    Dr. Wittes, if you would like to--we will go down this way 
real quickly this time.
    Ms. Wittes. Thank you, and I will try to be brief.
    You know, I think your question about assistance actually 
links to this very well, because one of the new items in the 
Fiscal Year 2013 budget that the administration sent up this 
week is a new $770 million Middle East incentive fund, which is 
designed, I think, precisely to get at the issue that you raise 
and to say that for those governments that are willing to make 
decisions that advance human freedom, that advance dignity and 
opportunity for their people, that accord with the interests 
that we share in democratic development, there can be this 
funding available. And so rather than having a sort of 
bilateral entitlement or a very narrow, transactional, issue-
by-issue kind of aid relationship, you can have something that 
is on the basis of a shared understanding, and I think that 
might go a good way to addressing your concern.
    Mr. Chabot. Okay, thank you.
    I have got 45 seconds left. Doctor, you have got 20 
seconds, and, Doctor, you have got 20 seconds, too.
    Ms. Dunne. Well, I would just add that I think that the 
bargain that we reached in Egypt in the--with Egypt in the 
1970s needs reinventing. I mean, the Egyptians understood it as 
as long as we keep the peace with Israel, we get the aid, no 
other conditions. And clearly the United States, of course, 
wants Egypt to keep the peace with Israel, but also is, you 
know, increasingly interested in the development and the 
democratization of Egypt, and therefore, you know, we need to 
have a new understanding based on that.
    Mr. Chabot. Okay. Thank you. My time has expired. So thank 
you very much, and I yield now for a concluding 5 minutes to 
the gentleman from New York.
    Mr. Ackerman. I thank the chairman again.
    The original aid package to both Egypt and Jordan was 
predicated in strong measure because of their willingness to be 
peaceful countries within the region, for signing a peace 
accord with Israel, for recognizing the international treaties 
and obligations that they had, and for sticking to that. I 
don't know too many who would argue that a stable Israel in the 
region as a democratic ally of the United States is a narrow 
interest, and basically the money to Egypt way back when--and 
some of us were around almost when that happened--it was 
because they were willing to do that and to show other 
countries in the region that if they followed suit, good things 
can happen to them as well.
    That money is still important to Egypt, and the principle 
still makes a lot of sense to a lot of people. I think the last 
thing the military in Egypt would like to do is to be involved 
in an altercation with the Israelis. They are a lot smarter 
than that. They have affirmed, and it is important for us to 
hear that, that they want to keep all of their international 
obligations and will quite readily indicate that they 
understand what we are saying, and they will verbalize it, too, 
and certainly have. They are an important part and component of 
this.
    They are in a delicate situation. The judiciary is in a 
delicate situation. They are supposed to be an independent 
judiciary, not to be influenced by political considerations, 
because we want them to be a democracy, or so we say, but it 
seems to me that some want them--and I am not justifying 
anything they have done, God forbid, in this instance. Some 
seem to want them to be a democracy, and when the judiciary 
makes a decision that we don't like to investigate a case, we 
say, oh, no, you can't do that; you have to forget about 
whatever you think your law tells you to do and do what we tell 
you to do. How would we like it if some country we have a 
relationship with said, forget about what your court just did, 
we are too important to be subject to your law?
    I mean, we are in a predicament here. If we are insisting 
that they become a democracy with an independent judiciary, how 
do we start out with disagreeing with their judiciary? And I 
disagree with their judiciary; they are outright wrong. This 
was a political decision, and yada, yada, yada. But I think 
sometimes our Supreme Court makes those kind of things, too, 
but nonetheless we don't abdicate all of our other 
responsibilities. We try to move on.
    This is a complicated issue, and, yes, we cannot be pushed 
around by anybody who decides to seize our citizens. This is, 
in part, how we are going to be viewed in the region, and that 
is what diplomats are for. We have to try to figure out a way, 
and some suggestions have been made to some parties over there, 
and they are being made by some of our diplomats right now, to 
try to get this resolved in a reasonable fashion. It is not 
without warrant that we have some hope that these things can 
happen. There are histories that show that there were tougher 
incidents than this all over the world that have been resolved.
    I just want you to respond to that, and maybe if the 
chairman likes, we can wrap it up.
    Mr. Kagan. Just quickly, this is not a situation where a 
judge has brought, you know, charges against citizens of 
another country and the U.S. Government or any government has 
to deal with that problem. The analogy would be more 
appropriate to say that the U.S. Treasury Secretary ordered a 
court to start proceedings against a foreign national, and that 
is where we--that is much more like where we are right now.
    Mr. Ackerman. But the Justice Department has taken up the 
case, and they have brought charges.
    Mr. Kagan. That is right, at the instigation of the 
government. I agree with that. That is where we are now. It is 
not----
    Mr. Ackerman. As a matter of fact, members of the SCAF were 
here at the time during the week actually meeting with me when 
they got word from Cairo, and they were very surprised that 
charges were about to be brought, and their string was pulled, 
and they left their meetings that they were supposed to have 
the next day with the Senate and hightailed it back. They were 
caught very much by surprise that the formal charges were 
brought, it would seem. But nonetheless, formal charges were 
brought by the courts. There is an investigation going on. I 
mean, you know, it is not a pure analogy, but that is what has 
happened.
    Mr. Chabot. The gentleman's time has expired.
    Dr. Dunne?
    Ms. Dunne. Congressman Ackerman, I would like to draw your 
attention to a statement that was put out by 29 Egyptian NGOs 
today discussing exactly this issue, is this really a genuine, 
you know, judicial case, and they go in detail in that 
statement into all the things that indicate that this is a 
completely political case, the specific choice of judges who 
are known to have links to the state security courts, et 
cetera. This case has been thoroughly politicized, and before 
it ever became a Ministry of Justice investigation, there was 
an extensive----
    Mr. Ackerman. I agree with that. I am not justifying it. I 
think this whole thing is a bunch of political overhyped hokum. 
There is no merit to this case whatsoever. This is rigged, but, 
you know, it is a rigged case within a rigged system, but it is 
a new rigged system that is just getting started. We don't know 
what to expect from it if they are going to be a real democracy 
in the end.
    But the point is there is an enigma here, and what we think 
we can demand of a country that is just starting to exercise 
its own self-notion that they have been unfettered from 
dictatorial rule and want to exercise their own self-
governments under their own system, and I think when that 
happens, people seem to lock in when they are dictated to by 
others, even though it is an enlightened other in our case, as 
to what they have to do and what they should do.
    Yeah, the system is rigged, I believe that 1,000 percent, 
and I haven't seen the statement, but I am sure it is accurate. 
But, you know, what do you do about it, given all the givens 
that we have, and we have a lot of givens here.
    Mr. Chabot. Dr. Dunne, did you want to finish your thought?
    Ms. Dunne. Just briefly, Congressman. I would point out 
that there are a couple of previous cases; for example, the 
case against Dr. Saad Eddin Ibrahim and the case against Ayman 
Nour. These were political opponents of the regime. There were 
politically inspired judicial cases against them, and in both 
of those cases, when the Egyptian Government decided that it 
had gone far enough and the costs had gotten too high, they 
found a way out of it. They referred Dr. Saad Eddin's case to a 
higher court that then acquitted him on all charges. In Ayman 
Nour's case they decided to release him on health grounds. So 
they get themselves into these situations, and they can get 
themselves out of it once they have decided to do so.
    Mr. Ackerman. Exactly, and we are looking for those grounds 
right now.
    Mr. Chabot. Mr. Trager and Dr. Wittes, did you want to 
comment?
    Mr. Trager. I would just echo what Michele said, that that 
actually shows the importance of taking this moment right now 
to send a clear message that there are red lines, and that our 
aid is conditional and not an entitlement.
    Mr. Chabot. Okay, thank you.
    Dr. Wittes, we will conclude with you.
    Ms. Wittes. Thank you.
    I think it is important to recognize that this is the 
result of contention inside Egypt, and what we have to ask 
ourselves is who is it that we are trying to partner with. So 
we can be outraged by and make demands of and have expectations 
of those who created this problem and those who are managing 
this problem, but we have to keep our eye on the ball of the 
relationship we need to build with those who will be running 
Egypt in the future, and I really thinks that is where we 
should be directing the focus of our attention. Thank you.
    Mr. Chabot. Thank you.
    We would like to thank the whole panel this afternoon for 
their contribution to the understanding of this issue. I think 
it was very good testimony from all four of the witnesses, and, 
without objection, all members will have 5 days to revise and 
extend their remarks or submit questions or statements of any 
sort.
    And if there is no further business to come before the 
committee, we are adjourned. Thank you very much.
    [Whereupon, at 4:11 p.m., the subcommittee was adjourned.]
                                     

                                     


















                            A P P E N D I X

                              ----------                              


                Material Submitted for the Hearing Record  

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
